n
IN THE

Supreme Court of tlje ®ntteb

filed
SJI~ 14 2021

'i

;

s
—^■’OyRJng.

/
S

LIN OUYANG,
Petitioner,
v.
ACHEM INDUSTRY AMERICA, INC.
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE CALIFORNIA COURT
OF APPEAL FOR THE SECOND DISTRICT
PETITION FOR WRIT OF CERTIORARI

LIN OUYANG
1124 WEST ADAMS BLVD.
LOS ANGELES, CA 90007
(213) 747-5296
lin.ouyang@gmail.com
PETITIONER IN PRO SE

Dated: July 24, 2021

QUESTION PRESENTED
A three-judge panel of California Court of Appeal, in an
extraordinary writ proceeding reviewing an interlocutory trial court order
denying motion for summary adjudication, proposed undisputed material
facts on issues that were not decided by the trial court, reviewed their own
evidence without giving the parties an opportunity to produce their
evidence and reversed trial court’s order denying motion for summary
adjudication.
Except one justice who retired, the rest two justices remained in the
panel deciding the subsequent appeal of the final judgment, in which
contentions were raised that California Court of Appeal erred in reversing
trial court’s order denying motion for summary adjudication on issues that
were not decided by the trial court and evidence that contradicts the
evidence of California Court of Appeal was denied an opportunity to
submit by the Court of Appeal. The appeal also involves claims that are
related to the issues decided by the Court of Appeal in the extraordinary
writ proceeding.
The question presented is:
1. Did the California Court of Appeal justices’ failure to recuse
themselves from deciding the appeal of the final judgment violate
the Due Process Clause?

PARTIES TO THE PROCEEDINGS BELOW
All parties appear in the caption of the case on the cover page.
RULE 29.6 CORPORATE DISCLOSURE STATEMENT
Respondent Achem Industry America, Inc. is a wholly owned
subsidiary of Achem Technology Corporation. Achem Technology
Corporation ‘s stock is publicly traded. No publicly held entity owns 10%
or more of the stock of Achem Technology Corporation. Yem Chio
Corporation Ltd.

holds

controlling

shares of Achem Technology

Corporation’s stock. Yem Chio Corporation Ltd. ‘s stock is publicly traded.
No publicly held entity owns 10% or more of the stock of Yem Chio
Corporation Ltd.
RELATED PROCEEDINGS
Lin Ouyang v. Achem Industry America, Inc., California Court of
Appeal, No. B290915. Opinion entered 12/3/2020,
Achem Industry America, Inc. v. Los Angeles Superior Court,
California Court of Appeal, No. B282801. Order and Opinion reversing
Los Angeles Superior Court's order denying motion for summary
adjudication entered 8/16/2017.
Lin Ouyang v. Achem Industry America, Inc., Los Angeles Superior
Court, No. BC556293. Order denying motion for summary adjudication
entered 5/15/2017.
Lin Ouyang v. Achem Industry America, Inc., Los Angeles Superior
Court, No. BC556293. Judgment entered 6/19/2018.

TABLE OF CONTENTS
QUESTION PRESENTED

i

RULE 29.6 CORPORATE DISCLOSURE STATEMENT

ii

RELATED PROCEEDINGS

ii

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

2

JURISDICTION

3

CONSTITUTIONAL PROVISION INVOLVED

3

STATEMENT OF THE CASE

4

I.

The Underlying Action

4

II. Motion for Summary Adjudication Proceedings in Los
Angeles Superior Court

5

III. Extraordinary Writ Proceedings in California Court of
Appeal

6

A. California Court of Appeal Decided an Issue of Fact that Was
Not Adjudicated by the Trial Court and Did Not Give the
Parties a Notice to Produce Their Evidence on the Issue...... 6
B. California Court of Appeal Raised a New Argument that Is
Opposite to Both Parties’ Allegations and Did Not Give the
Parties a Notice to Respond.
iii

-8-

IV. Request to disqualify Justice Manella and Justice
Collins

10

V. Appeal Proceedings in California Court of Appeal

11

A. On appeal, California Court of Appeal Refused to Correct the
Errors Made in the Extraordinary Writ Proceeding

11

B. Relevant Claims Were Also Erroneously Determined as a
Result of California Court of Appeal’s Failure to Correct the
Errors Made in the Extraordinary Writ Proceeding

11

VI. Petition for Rehearing in California Court of Appeal .. 13
VII.Petition for Review in California Supreme Court
REASON FOR GRANTING THE PETITION

13
14

A. Certiorari Review is Warranted Due to the California
Appellate Court’s Departure from the Accepted and Usual
Course of Judicial Proceedings that Created an Unacceptable
14

Risk of Judicial Bias.
B. Justice Manella and Justice Collins’ Failure to Recuse
Themselves Conflicts with this Court’s Due process

16

Precedents.

18

CONCLUSION

IV

INDEX OF APPENDICES
Appendix A. Opinion of California Court of Appeal. (12/3/2020) App. la26a.
Appendix B. Opinion of California Court of Appeal reversing Los Angeles
Superior Court's order denying motion for summary adjudication.
(8/16/2017) App. 27a-52a.
Appendix C. Order of California Court of Appeal denying Petition for
Rehearing. (12/29/2020) App. 53a.
Appendix D. Order of California Supreme Court denying Petition for
Review. (2/24/2021) App. 54a.
Appendix E. Order of Los Angeles Superior Court denying motion for
summary adjudication. (5/15/2017) App. 55a-57a.
Appendix F. Judgment of Los Angeles Superior Court. (6/19/2018) App.
58a-59a.

TABLE OF AUTHORITIES
FEDERAL CASES
Celotex Corp. v. Catrett, 477 US 317 (1986)
In re Murchison, 349 US 133 (1955)

16
14, 16, 17, 18

Marburyv. Madison, 5 US 137 (1803)

15

Marshall v. Jerrico, Inc., 446 US 238 (1980)

16

Plumhoffv. Rickard, 134 S. Ct. 2012 (2014)

15

Rexford v. Brunswick-Balke-Collender Co., 228 U.S. 339 (1913)

17

Rice v. Sioux City Memorial Park Cemetery, Inc., 349 US 70 (1955)....... 14
United States v. Lanier, 520 U.S. 259 (1997)
Williams v. Pennsylvania, 136 S. Ct. 1899 (2016)

1
18

FEDERAL STATUTES
3

28U.S.C. § 1257(a)........
STATE CASES
Aguilar v. Atlantic Richfield Co., 24 P. 3d 493 (Cal. 2001)

16

Brown, Winfield & Canzoneri, Inc. v. Superior Court, 47 Cal.4th 1233 (Cal.
2010)

15

STATE STATUTES
Cal. Code Civ. Proc. § 437c(m)

15

vi

PETITION FOR WRIT OF CERTIORARI
Petitioner Lin Ouyang respectfully requests this Court grant her
petition for writ of certiorari and vacate California Court of Appeal ’s
decision involving unusual circumstances that required the recusal of the
state appellate court justices.
Petitioner has not been able to find a case where an appellate court
judge sitting as an appellate court judge adjudicated the matter that is
supposed to be adjudicated by a trial judge and later the appellate court
judge had to review her own order from appeal of the final judgment. The
absence of direct authority on this point is precisely because no one would
consider such a thing permissible: “a general constitutional rule already
identified in the decisional law may apply with obvious clarity to the
specific conduct in question, even though ‘the very action in question has
[not] previously been held unlawful.’” United States v. Lanier, 520 U.S.
259, 271 (1997) (citation omitted). As this Court has noted, “[t]he easiest
cases don’t even arise.” Id. (citation and internal quotations omitted). This
is one of those easy cases: an appellate court judge cannot maintain a
constitutional level of impartiality in reviewing a judgment that she
involves as a trial judge.
Petitioner requests that this Court grant her petition for writ of
certiorari to correct this fundamental miscarriage of justice.

1

OPINIONS BELOW
On May 15, 2017, Los Angeles Superior Court denied Respondent
Achem Industry America Inc.’s motion for summary adjudication. Los
Angeles Superior Court No. BC556293. Order. App. 55a-57a.
On August 16, 2017, California Court of Appeal, before trial court
reached a final judgment, reversed trial court’s order denying motion for
summary adjudication via an extraordinary writ proceeding and directed
trial court to enter an order granting the motion. Justice Nora M. Manella
authored the opinion, and Justice Audrey B. Collins and former Justice
Norman L. Epstein concurred. Achem v. Los Angeles Superior Court,
California Court of Appeal, No. B282801, unpublished, App. 27a-52a.
On June 19, 2018, Los Angeles Superior Court entered a final
judgment, Los Angeles Superior Court No. BC556293. Order. App. 58a59a.
On July 22, 2019, California Court of Appeal denied Petitioner
Ouyang’s request to disqualify Justice Nora M. Manella and Justice Audrey
B. Collins from hearing the underlying appeal. Ouyang’s request was made
in a complaint filed with the Administrative Presiding Justice of California
Court of Appeal, Second District. No order was made.
On December 3, 2020, California Court of Appeal affirmed trial
court’s final judgment entirely. Justice Nora M. Manella authored the
opinion, and Justice Audrey B. Collins and Justice Brian S. Currey —2

concurred. Ouyang v. Achem, California Court of Appeal, No. B290915,
unpublished, App, la-26a.
On December 29, 2020, California Court of Appeal denied petition
for rehearing. Order. App. 53a.
On February 24, 2021, California Supreme Court denied petition for
review. Order. App. 54a.
JURISDICTION
The judgment of the California Court of Appeal was entered on
December 3, 2020. App. la. California Supreme Court denied petition for
review on February 24, 2021. App. 54a. This petition is timely filed
pursuant to Supreme Court Rule 13.1 and the Orders of March 19, 2020,
and July 19, 2021, extending the time to file due to the Covid emergency.
This Court has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Fourteenth Amendment to the United States Constitution
provides, in pertinent part:
No state shall . . . deprive any person of life, liberty, or property,
without due process of law; nor deny any person within its jurisdiction the
equal protection of the laws.

3

STATEMENT OF THE CASE
I.

The Underlying Action
Petitioner Lin Ouyang (“Ouyang”) filed a civil action against

Respondent, her former employer Achem Industry America, Inc.
(“Achem”) App. 28a. Ouyang’s complaint (“the complaint”) contains a
fraud cause of action and a breach of contract cause of action alleging that
Achem made false representations to Ouyang that Achem would pay
Ouyang’s health insurance premium while she was on unpaid leave and the
complaint seeks damages for uninsured medical expense. App. 36a-38a. i
The complaint also contains a wrongful constructive termination
cause of action and discrimination cause of action. App. 4a. Trial court
sustained demurred to those causes on the ground of statute of limitations.
App. 6a-7a.
Achem, in its verified answer, admits among other matters that
Achem agreed to pay Ouyang’s health insurance premium while she was on
unpaid leave, as Ouyang “was expected to return back to work at Achem”,
however Achem denies authority over its group health insurance plan and
Achem further alleges that Achem lacks knowledge or information about
whether Ouyang was enrolled in its group health insurance plan and

1 The opinion also summarized the claims as “Achem improperly allowed her employment-based
health insurance coverage to lapse when she took a leave of absence from her employment.” App.
28a. Also see App. 38a. (“The fraud claim relies on allegations that Achem knowingly made false
representations to Ouyang regarding the payment of her insurance premiums. andTier Ineligibility
for COBRA coverage”.)

4

whether Ouyang was terminated from its group health insurance plan.
California Court of Appeal, No. B290915, 4 CT 933-936.2
II.

Motion for Summary Adjudication Proceedings in Los Angeles
Superior Court
Achem filed in trial court a motion for summary adjudication of

issues alleging that the fraud and the breach of contract claims “were
subject to ERISA preemption”. App. 39a. Achem did not establish that
Achem’s group health insurance plan was an employee welfare benefit plan
within the meaning of ERISA, rather Achem contended that Achem’s
group health insurance plan did not provide health insurance to employees
who did not work full time and Ouyang was aware of that. App. 40a.
Achem also argued that “ADP— rather than Achem — was responsible for
the misrepresentations that Ouyang attributed to Achem ... [Ojnly ADP ...
made the misrepresentation^] to [Ouyang regarding] her health insurance
eligibility... [Achem] did not make any”. App. 39a-40a.
Ouyang opposed the motion on the ground that Achem failed to
carry its burden of showing that Achem’s group health insurance plan
constituted an ERISA plan. App. 40a-41a. Ouyang further argued that
Achem’s agreement to pay her health insurance premium while she was on
unpaid leave is an individual agreement outside the scope of ERISA. App.
40a-41a.
2 California Court of Appeal’s opinion omitted statements made by Achem in its verified answer
that were consideredb~y~tfia1~cbiiftiri'ralingTnotion-for summary-adj-udication.JA.pp..28a-5 fa, 5Aa57a, California Court of Appeal, No. B290915, 13 CT 2952-2953, 2964-2965, 2975-2984.

5

Trial court denied Achem’s motion finding that triable issues of
material facts existed including but not limited to whether Ouyang’s claim
related to an ERISA plan, at the same time trial court found that Ouyang
did not plead an ERISA claim. App. 42a, 55a-57a. Trial court’s order
further stated that “[Ouyang’s] evidence, if credited by the trier of fact, is
sufficient to establish that any agreement by [Achem] to provide health
benefits to [Ouyang] when she was on unpaid leave3 was outside of
[Achem’s] agreement to provide coverage for her while she was working.”
App. 42a, 57a.
Trial court did not adjudicate whether trialable issue exists as to
existence of an employee welfare benefit plan within the meaning of
ERISA. App. 42a, 56a-57a.
III.

Extraordinary Writ Proceedings in California Court of Appeal
California Court of Appeal granted Achem’s petition for an

extraordinary writ to review trial court’s denial of Achem’s motion for
adjudication before trial court entered a final judgment. App. 28a.
A.

California Court of Appeal Decided an Issue of Fact that
Was Not Adjudicated by the Trial Court and Did Not Give
the Parties a Notice to Produce Their Evidence on the Issue.

California Court of Appeal proposed undisputed facts on the issue of
existence of an ERISA plan that was not adjudicated by the trial court, and
3 California Court of'AppeaPs opinion'Omitted'statement “when-she-was-©n-unpaid-leav.e”,a-part.
of trial court’s order. App. 57a.

6

California Court of Appeal asserted that Ouyang’s complaint supported its
position without giving the parties an opportunity to produce their
evidence. App. 42a-45a, 55a-58a.
Achem, in its verified answer, affirmatively denies that it has
authority over its group health insurance plan and Achem further alleges
that Achem lacks knowledge or information about whether Ouyang was
enrolled in its group health insurance plan or whether Ouyang was
terminated from its group health insurance plan. California Court of
Appeal, No. B290915, 4 CT 933-936. Even though, Ouyang alleges in the
complaint upon information and belief that Achem has authority over its
group health insurance plan App. 38a4, statements of Achem’s denial of
authority with specific facts in its verified answer shows genuine dispute as
to whether an ERISA plan exists. App. 43a. (“[retaining] authority to
terminate the policy or change its terms” is required to establish or maintain
an ERISA plan), California Court of Appeal, No. B290915, 4 CT 933-936.
Because no parties raised the issue that Achem has authority over its
group health insurance plan and no parties submitted evidence on that issue,
App. 39a-42a, California Court of Appeal reviewed its own evidence and
found that evidence was not in dispute that Achem had authority over its

4 The allegation that Achem has authority over its group health insurance plan was made upon
information and belief in the complaint. California Court of Appeal, No. B290915, 4 CT 752:2425. CalTtorniartouft of AppertJs~opimon-omitted-statem&nt-Qf-upon-inforination,and.belief. App.
38a.

7

group health insurance plan and no trialable issue existed as to existence of
an ERISA Plan. App. 43a-45a.
B.

California Court of Appeal Raised a New Argument that Is
Opposite to Both Parties’ Allegations and Did Not Give the
Parties a Notice to Respond.

California Court of Appeal also raised the argument that Ouyang’s
allegation that Achem’s agreement to pay her health insurance premium on
unpaid leave is not part of Achem’s group health insurance plan is a new
theory of liability not pleaded in the SAC and is inconsistent with the
SAC’s allegations. App. 46a-47a.
To support its position, California Court of Appeal asserts that
“Nothing in the SAC reasonably suggests that Achem agreed to pay for
Ouyang’s HMO health insurance pursuant to an individual contract
separate from Achem’s ERISA plan.” App. 47a. Contrary to Court of
Appeal’s allegation, the complaint specifically pleads that when Ouyang
enrolled in Achem’s health insurance plan, she checked whether Achem
would continue to pay her health insurance premium while she was on
unpaid leave and stated that she would enroll in COBRA if Achem no
longer made that offer. California Court of Appeal, No. B290915, 4 CT
751:9-12.
California Court of Appeal also asserts that a one-page letter
attached to the complaint “described the terms of Achem’s group health
8

insurance plan, including the availability of HMO health insurance
coverage at no cost to employees”, App. 41a, however the complaint does
not make a statement or indication that the letter described the terms of
Achem’s group health insurance plan. California Court of Appeal, No.
B290915, 4 CT 778. Moreover, the complaint states that Achem’s
representations in the letter is false, California Court of Appeal, No.
B290915 4 CT 752:4-8, and Achem in its verified answer denies making
the representations in the letter and denies sending the letter. California
Court of Appeal, No. B290915, 4 CT 935:17-23.
Because California Court of Appeal did not notify the parties of its
allegations, Ouyang was not able to respond that the court’s allegations
were based on misrepresentations of the record and were opposite to both
parties’ allegations. App. 39a-40a (Achem contended that Achem’s group
health insurance plan did not provide health insurance to employees who
did not work full time and Ouyang was aware of that), App. 42a (trial court
did not find that Ouyang pleaded an ERISA claim), App. 38a (“The fraud
claim

relies

on

allegations that Achem knowingly made

false

representations to Ouyang regarding the payment of her insurance
premiums and her ineligibility for COBRA coverage”).
In sum, California Court of Appeal proposed undisputed material
facts, reviewed its own evidence, found the facts were not disputed without

9

giving the parties an opportunity to provide their evidence, and reversed
trial court’s summary adjudication denial.
California Court of Appeal denied Ouyang ‘s timely petition for
rehearing. California Supreme Court denied Ouyang’s timely petition for
review. App. 25a.
Trial court reversed its order denying Achem’s motion for summary
adjudication pursuant to California Court of Appeal’s order and entered a
final judgment subsequently. App. 2a.
IV.

Request to disqualify Justice Manella and Justice Collins
On July 20, 2019, Ouyang requested to disqualify Justice Manella

and Justice Collins from hearing the underlying appeal in her complaint
filed with Administrative Presiding Justice of California Court of Appeal Second Appellate District.
Ouyang claimed that she could not have a fair hearing before the
justices. Ouyang ‘s request was made on the ground that the justices did not
provide her a due process hearing in her prior appeals California Court of
Appeal Nos. B261929 and B267217, in which the justices decided the
appeals basing on arguments raised by themselves and basing on
significantly misstated trial court record.
Ouyang’s request of disqualification was denied. As a result, except
Justice Epstein who retired, all justices, Justice Manella and Justice Collins,

10

who participated in the extraordinary writ proceeding remained in the panel
to decide the underlying appeal.
V.

Appeal Proceedings in California Court of Appeal
A.

On appeal, California Court of Appeal Refused to Correct
the Errors Made in the Extraordinary Writ Proceeding.

On appeal, Ouyang requested California Court of Appeal to vacate
its order reversing trial court’s order of denying motion for summary
adjudications on the ground of due process violations. Ouyang also
requested California Court of Appeal to consider the evidence that
contradicts California Court of Appeal’s evidence creating trialable issue of
material facts on the matter of ERISA preemption. California Court of
Appeal, No. B290915, Appellant’s Opening Brief 52-53. California Court
of Appeal denied Ouyang’s request, finding its order in the extraordinary
writ proceeding final. App. 24a-25a.
B.

Relevant Claims Were Also Erroneously Determined as a
Result of California Court of Appeal’s Failure to Correct
the Errors Made in the Extraordinary Writ Proceeding.

On appeal, Ouyang raised the argument that trial court erred in
sustaining demurrer to the discrimination causes of action and the wrongful
constructive termination cause of action because Achem is estopped from
claiming statute of limitation defense by its false representations and the
delay was caused by Ouyang’s reasonable reliance on those false
11

representations. Achem’s false representations include that Achem failed to
pay Ouyang the promised wage not because of discrimination, but because
Achem’s new management was confused by the fraud committed by the
prior management who placed Ouyang on pay roll as a purchasing clerk
while Ouyang performed the job duties of a computer information system
manager and that Achem needed to investigate Ouyang’s job duties to
decide whether to increase Ouyang’ wage. California Court of Appeal, No.
B290915, Appellant’s Opening Brief 40-48.
California Court of Appeal found that Ouyang could not assert that
Achem was estopped from asserting the statute of limitations defense
because “Achem did not act in a manner that could have led Ouyang to
believe her claims would be amicably resolved”, App. 17a.
Contrary to California Court of Appeal’s assertion, the complaint
alleges in the fraud cause of action and breach of contraction cause of
action that Achem promised to pay Ouyang health insurance premium on
her unpaid leave, and that offer together with Achem’s representations to
investigate Ouyang’s job duties is an act to resolve the claim amicably, as
Achem’s group health insurance plan does not provide payment of health
insurance premium to employees on unpaid leave. California Court of
Appeal, No. B290915, 4 CT 751:9-12.
However, in the extraordinary writ proceeding, California Court of
Appeal made a misstatement that a one-page letter from Achem to Ouyang
described the terms of Achem’s group health insurance plan and found that
12

Ouyang’s allegation of entitlement to payment of health insurance premium
on unpaid leave was based on Achem’s group health insurance plan. App.
41a, App. 46a-47a, California Court of Appeal, No. B290915, 4 CT 778.
California Court of Appeal will have to confess previous error of
misstatement if it considers the allegations in the complaint that Achem
made a special agreement to pay Ouyang health insurance premium on her
unpaid leave. Because California Court of Appeal refused to correct its
eiTor,

California

Court

of Appeal

also

erroneously

decided the

discrimination and wrongful constructive termination claims on appeal
finding “Achem did not act in a manner that could have led Ouyang to
believe her claims would be amicably resolved”, App. 17a, 24a-25a, 46a47a.
VI.

Petition for Rehearing in California Court of Appeal
Ouyang raised the issue that she was denied a fair tribunal and

renewed her request of disqualification in her petition for rehearing.
California Court of Appeal, No. B290915, Petition for Rehearing, pp. 14,
59-60.
Petition for rehearing was denied by California Court of Appeal.
App. 53a.
VII.

Petition for Review in California Supreme Court
Ouyang raised the issue that she was denied a fair tribunal in her

petition for review:
13

Petition for review was denied by California Supreme Court. App.
54a.
REASON FOR GRANTING THE PETITION
A.

Certiorari Review is Warranted Due to the California
Appellate Court’s Departure from the Accepted and
Usual Course of Judicial Proceedings that Created an
Unacceptable Risk of Judicial Bias.

This Court will review a state court decision when a state court has
decided an important question of federal law that has not been, but should
be, settled by this Court, or has decided an important federal question in a
way that conflicts with relevant decisions of this Court. SCR 10 (c). “An
important federal question” means that the issue involved reaches
constitutional dimensions. Rice v. Sioux City Memorial Park Cemetery, Inc.,
349 US 70, 74. For example, this Court granted certiorari to decide the
important federal constitutional questions raised in proceedings wherein
witness before a Michigan “judge-grand jury” were adjudicated in contempt
by same judge who had sat as grand jury. In re Murchison, 349 US 133,
136.
Here, justices of California Court of Appeal affirmed a summary
judgment grant on appeal while the grant was entered by trial court under
the direction of the same justices’ reversal of the trial court’s summary
judgment denial and the reversal was based on issues of facts not
14

adjudicated by the trial court, but by the same justices in the interlocutory
review of a summary judgment denial without giving the parties a notice
and an opportunity to submit their evidence. The California Court of
Appeal justices’ failure to recuse themselves conflicts with this Court’s due
process precedents. Even though, an appellate court may review a summary
judgment denial before entry of a final judgment under certain
circumstances, Cal. Code Civ. Proc. § 437c(m); Brown, Winfield &
Canzoneri, Inc. v. Superior Court, 47 Cal.4th 1233, 1238; Plumhoff v.
Rickard, 134 S. Ct. 2012, 2019, the scope of review should be limited to the
issues decided by the trial court because appellate jurisdiction is limited to
revise and correct decisions of a superior court. Marbury v. Madison, 5 US
137, 175 (“It is the essential criterion of appellate jurisdiction, that it revises
and corrects the proceedings in a cause already instituted, and does not
create that cause.”) The appellate court in this case crossed such limitation,
it decided in an extraordinary writ proceeding matter of facts that were not
adjudicated by the trial court and the court later reviewed its own ruling on
appeal of the final judgment. The ruling of California Court of Appeal so
far had departed from the accepted and usual course of judicial proceedings
as to warrant this Court’s plenary consideration. SCR 10.

15

B.

Justice Manella and Justice Collins’ Failure to Recuse
Themselves Conflicts with this Court’s Due process
Precedents.

Justice Manella and Justice Collins’ failure to recuse themselves
from this case violated Ouyang’s Due Process right. “The Due Process
Clause entitles a person to an impartial and disinterested tribunal in both
civil and criminal cases.” Marshall v. Jerrico, Inc., 446 US 238, 242. This
Court has explained that “no man can be a judge in his own case and no
man is permitted to try cases where he has an interest in the outcome.” In re
Murchison, 349 US 133, 136. In this case, Justice Manella and Justice
Collins had been a judge of their own case in both the extraordinary writ
proceeding and the appeal proceeding.
In the extraordinary writ proceeding, Justice Manella and Justice
Collins was a moving party when they proposed undisputed facts and
identified potions of pleadings to support their position and at the same
time, they were a judge when they reviewed evidence and found their
proposed undisputed facts were undisputed. Aguilar v. Atlantic Richfield
Co., 24 P. 3d 493, 107 Cal.Rptr.2d 841, 861 (“generally, the party moving
for summary judgment bears an initial burden of production to make a
prima facie showing of the nonexistence of any triable issue of material
fact”); Celotex Corp. v. Catrett, All US 317, 323 (“a party seeking
summary judgment always bears the initial responsibility of informing the
district court of the basis for its motion, and identifying those portions of
16

"the pleadings, depositions, answers to interrogatories, and admissions on
file, together with the affidavits, if any," which it believes demonstrate the
absence of a genuine issue of material fact.”) Like the "judge-grand jury" in
Murchison, Justice Manella and Justice Collins cannot remain impartial in
such a proceeding wherein they served as both an adjudicator and a party
being adjudicated, thus their recusal is constitutionally required. In re
Murchison, 349 U. S. 133, 136-137. (A constitutionally intolerable
probability of bias exists when the same person serves as both accuser and
adjudicator in a case.)
In the appeal proceeding, Justice Manella and Justice Collins was a
trial judge when they adjudicated whether genuine issue of material facts
existed as to existence of an ERISA plan that was not adjudicated by the
trial court and was an appellate court judge when they reviewed their order
from the final judgment whether they erred in finding that no genuine issue
of material facts existed. Congress barred judges from hearing on appeal
cases that they had decided at trial. 28 U.S.C. § 47. Rexford v. BrunswickBalke-Collender Co., 228 U.S. 339, 33 S.Ct. 515, 57 L.Ed. 864 (1913).
Apparently, the U.S. Congress enacted that statute based on due process
concerns involved when a judge would review criticism of his own decision
at the trial level. Yet, in California there are no such prohibitions by statute
- even there should be, as a matter of federal constitutional due process of
law. This Court has held that under the Due Process Clause there is an
impermissible risk of actual bias when a judge earlier had significant,
17

personal involvement as a prosecutor in a critical decision regarding the
defendant's case. Williams v. Pennsylvania, 136 S. Ct. 1899, 1905.
Here, the due process violation is even clearer than that in Williams.
While Williams judge was a party in the trial court as a prosecutor, Ibid.,
Justice Manella and Justice Collins were both a party and a trial judge when
they adjudicated whether genuine issue of material facts existed as to
authority over an ERISA plan, an issue of fact proposed as undisputed by
the judges themselves and supported by evidence identified also by the
judges. In other words, the judges in this case were a party, trial judge, and
appellate court judge all in one, or we may call it “one-man courts”.
Applying the objective standard and the due process maxim that "no man
can be a judge in his own case” to these circumstances, the likelihood of the
presence of partiality is sufficiently great to support a rule of absolute
disqualification. In re Murchison, 349 US 133, 136.
This Court should grant certiorari review and vacate California
Court of Appeal’s

decision, which violates Ouyang’s Fourteenth

Amendment right.
CONCLUSION
The petition for a writ of certiorari should be granted.
Dated July 24, 2021.
Respectively submitted,

i

LIN OUYANG
Petitioner in pro se
18

